WAIVER

SUPREME COURT OF THE UNITED STATES

No. (21-78

GLM DFW, Inc. Windstream Holdings, Inc.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature. [Harker Rhodes Date 2021 0723 8:37 88 0800

Date: 7/23/21

(Type or print) Name |¢_ Harker Rhodes IV

© mr. O Ms. O Mrs. O Miss
Firm Kirkland & Ellis LLP
Address 1301 Pennsylvania Avenue, NW
City & State |Washington, D.C. Zip |20004
Phone (202) 389-5000 Email harker.rhodes@kirkland.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Davor Rukavina, Esq.
ce:
